TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Procedures to Address Noncompliance
                    With the Reporting Requirements for
                  Contributions of Motor Vehicles Continue
                              to Be Inadequate



                                     September 11, 2009

                           Reference Number: 2009-30-116




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review
 process and information determined to be restricted from public release has been redacted from
                                          this document.

 Redaction Legend:
 1 = Tax Return/Return Information


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                     DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 September 11, 2009


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Procedures to Address Noncompliance
                                 With the Reporting Requirements for Contributions of Motor Vehicles
                                 Continue to Be Inadequate (Audit # 200830050)

 This report presents the results of our review of the American Jobs Creation Act of 2004,
 Provision 884 (Donation of Motor Vehicles, Boats, and Airplanes). 1 The overall objective of
 this review was to evaluate the effectiveness of the continuing implementation of Provision 884
 and the effectiveness of the processing of reported deductions for donations of motor vehicles to
 charitable organizations 2 years after its enactment. We also evaluated whether the charities
 receiving the donated vehicles provided the required documentation to the Internal Revenue
 Service (IRS). This review was conducted as part of our Fiscal Year 2009 Annual Audit Plan
 under the major management challenge of Processing Returns and Implementing Tax Law
 Changes.

 Impact on the Taxpayer
 In recent years, the legitimacy of the values placed on gifts of donated property, clothing,
 vehicles, and other noncash items has been questioned by the IRS and Congress. Due to
 concerns about taxpayers deducting amounts for motor vehicles that did not represent the
 accurate fair market values 2 of the donations, Congress passed legislation limiting the deductions
 and adding reporting requirements. Currently, taxpayers who may not be entitled to deductions
 for charitable contributions of motor vehicles are reducing their tax liabilities, which could result
 in a loss of revenue to the Federal Government and inequitable treatment of taxpayers.

 1
     Pub. L. No. 108-357, 118 Stat. 1418 (2004).
 2
     See Appendix VII for a glossary of the terms.
                               Procedures to Address Noncompliance
                     With the Reporting Requirements for Contributions of Motor
                                Vehicles Continue to Be Inadequate



Synopsis
Although the IRS issued additional guidance and developed a plan to improve awareness of the
current requirements for claiming deductions for charitable contributions of motor vehicles,
taxpayer noncompliance continues to be significant. The procedures used by the IRS
Submission Processing function are currently inadequate to ensure taxpayers meet the
requirements for deducting charitable contributions of motor vehicles. Tax laws related to
noncash charitable contributions state that no deduction shall be allowed for various noncash
charitable contributions unless taxpayers provide specific substantiating information with their
tax returns. Taxpayers are required to file Noncash Charitable Contributions (Form 8283) if
their charitable deductions claimed for noncash contributions exceed $500. Taxpayers are also
required to file Contributions of Motor Vehicles, Boats, and Airplanes (Form 1098-C) or a
written acknowledgement from the charity, in addition to Form 8283, if their charitable
deductions claimed for donated motor vehicles exceed $500.
The IRS’ plan for taking action only when the deduction exceeds the high threshold established
for other noncash donations and when the Form 8283 is missing (rather than incomplete) has
resulted in virtually no action by the IRS. Additional procedures need to be established to
identify noncompliance with motor vehicle donation requirements during returns processing.
Additional returns processing procedures will enable the IRS to address potential
noncompliance, as Congress intended in its legislation.
Charitable organizations are required to file Form 1098-C with the IRS for each contribution of a
motor vehicle with a claimed value more than $500; however, there was no record of Form
1098-C being filed in a significant number of cases.
The IRS captures information from Form 1098-C on the Information Return Processing System;
however, it does not match the Form 1098-C information with the information on taxpayers’
returns. Matching Form 1098-C with information provided on taxpayers’ returns would address
potential underreporting by taxpayers claiming deductions for motor vehicle donations. We
estimate 92,037 taxpayers claimed unsubstantiated motor vehicle donations totaling $204 million
for the tax year ending December 31, 2007. 3 In addition, we estimate 63,972 taxpayers may
have avoided paying approximately $17 million in taxes for the Tax Year 2007. 4




3
  The actual tax losses cannot be determined because the IRS is unable to identify these taxpayers and, therefore,
took no actions to determine whether the taxpayers could provide the required documentation. See Appendix V for
the statistical methodology.
4
  See Appendix IV for details.
                                                                                                                     2
                             Procedures to Address Noncompliance
                   With the Reporting Requirements for Contributions of Motor
                              Vehicles Continue to Be Inadequate



Recommendations
We recommended that the Commissioner, Wage and Investment Division, ensure returns without
required substantiation for charitable contributions of motor vehicles (including those with
missing or incomplete documentation) are processed pursuant to math error authority. The
Commissioner, Wage and Investment Division, should also coordinate with the other responsible
operating divisions to ensure all Forms 1098-C are transcribed and develop procedures to match
the information reported by charities on Forms 1098-C with the information reported on
taxpayers’ returns. We also recommended that the Commissioner, Tax Exempt and Government
Entities Division, use outreach, educational material, and other methods to ensure charitable
organizations comply with the requirement to file Form 1098-C with the IRS for each donated
motor vehicle with a value in excess of $500.

Response
IRS management agreed with one of our recommendations and disagreed with the other two.
Management agreed to use math error authority to deny claims for charitable contributions of
motor vehicles when the supporting documentation is not submitted with the return.
IRS management disagreed that matching the information reported by charities on Form 1098-C
with the information on taxpayers’ returns would yield good results. Management stated that
motor vehicle deductions are one of many noncash charitable contributions reported on Itemized
Deductions (Schedule A) of the U.S. Individual Income Tax Return (Form 1040), with no
separate line to report it; therefore, the quality of any match would be poor. In addition, the IRS
believes this noncash contribution review is better suited for the Correspondence Examination
Program.
IRS management disagreed that additional outreach, educational material, and other methods
were needed. Management believes they already have a substantial outreach program for motor
vehicle donations and have already completed what is being recommended. Management’s
complete response to the draft report is included in Appendix VIII.

Office of Audit Comment
We disagree that matching the information reported by charities on Form 1098-C with the
information on taxpayers’ returns would not yield good results and that the noncash contribution
review is better suited for the Correspondence Examination Program. The Correspondence
Examination Program would review only a small number of tax returns reflecting motor vehicle
donations. We believe matching the information reported by charities with the information on
taxpayers’ returns would more effectively identify potential underreporting by taxpayers


                                                                                                  3
                            Procedures to Address Noncompliance
                  With the Reporting Requirements for Contributions of Motor
                             Vehicles Continue to Be Inadequate


claiming undue deductions for motor vehicle donations and could facilitate the imposition of
penalties on charities that do not provide the required documentation to donors and the IRS.
We also disagree with the IRS’ response regarding outreach to charitable organizations.
Effective January 2006, charities were required to submit Form 1098-C to the IRS. The IRS has
had more than 2 years to make charities aware of the change in the law but our analysis still
identified an approximately 60 percent noncompliance rate. The deficient cases in our samples
were all filed after the IRS outreach was already available. Further, because the IRS is not
identifying noncompliant charities and imposing penalties when the charities fail to submit the
required documentation, compliance by charities may not improve.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations), at (202) 622-8510.




                                                                                               4
                                   Procedures to Address Noncompliance
                         With the Reporting Requirements for Contributions of Motor
                                    Vehicles Continue to Be Inadequate




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Additional Guidance Has Been Issued Concerning Requirements
          for Claiming Motor Vehicle Donations ........................................................Page 3
          Taxpayer Noncompliance With the Requirements for Claiming Motor
          Vehicle Donations Continues to Be Significant ...........................................Page 4
                    Recommendation 1:..........................................................Page 6

          Procedures Need to Be Established to Match Information Reported by
          Charitable Organizations to Taxpayers’ Returns..........................................Page 7
                    Recommendations 2 and 3: ................................................Page 8


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 10
          Appendix II – Major Contributors to This Report ........................................Page 13
          Appendix III – Report Distribution List .......................................................Page 14
          Appendix IV – Outcome Measures...............................................................Page 15
          Appendix V – Statistical Methodology.........................................................Page 17
          Appendix VI – Detailed Requirements of the American
          Jobs Creation Act of 2004, Provision 884 ....................................................Page 18
          Appendix VII – Glossary of Terms ..............................................................Page 19
          Appendix VIII – Management’s Response to the Draft Report ...................Page 21
                  Procedures to Address Noncompliance
        With the Reporting Requirements for Contributions of Motor
                   Vehicles Continue to Be Inadequate




                      Abbreviations

AJCA            American Jobs Creation Act of 2004
IRS             Internal Revenue Service
TIGTA           Treasury Inspector General for Tax Administration
                               Procedures to Address Noncompliance
                     With the Reporting Requirements for Contributions of Motor
                                Vehicles Continue to Be Inadequate




                                          Background

The Internal Revenue Code allows individuals and businesses to make noncash contributions
(e.g., vehicles, paintings, used clothing, and household goods) to qualifying charities and to
claim deductions for these contributions on their tax returns. Gifts of donated property, clothing,
vehicles, and other noncash items have long been a source of revenue for many charitable
organizations and a popular deduction for taxpayers. In recent years, the legitimacy of the values
placed on some of these noncash donations has been questioned by the Internal Revenue Service
(IRS) and Congress. There were concerns about taxpayers deducting amounts for used vehicles
that did not represent the accurate fair market value 1 of the donation as required by the tax laws
and, as a result, taxpayers were benefiting from the deduction more than the charities were
benefiting from the donations. As a result, Congress passed legislation limiting the deduction to
the gross amount of the sale, if sold, and adding additional reporting requirements to substantiate
the value of some of these donations. In Tax Year 2003, 2 individuals reported 14.3 million
noncash donations valued at about $36.9 billion. Of these, approximately 857,000 were vehicle
donations valued at about $2.3 billion. 3
On October 22, 2004, President Bush signed the American Jobs Creation Act of 2004 (AJCA). 4
AJCA Provision 884 (Donations of Motor Vehicles, Boats, and Airplanes) added reporting
requirements for individual taxpayers making charitable contributions of motor vehicles valued
at more than $500. The IRS Wage and Investment Division was assigned primary responsibility
for implementation of Provision 884. The implementation of this Provision involved multiple
actions, including providing training and guidance to IRS employees, creating and revising tax
forms and publications, and coordinating extensively with various IRS functions.
We conducted this review to follow up on recommendations made in our prior audit report. 5
This review was also conducted to evaluate the continuing implementation of AJCA
Provision 884 and processing of returns reporting deductions for donations of motor vehicles to
charitable organizations.
This review was performed at the IRS Brookhaven Campus in Holtsville, New York, during the
period October 2008 through April 2009, and included a review of tax returns filed nationwide
and discussions with personnel in the Submission Processing function of the Wage and


1
  See Appendix VII for a glossary of the terms.
2
  Tax Year 2003 was the most current year for which complete data were available.
3
  IR-2006-113, dated July 18, 2006.
4
  Pub. L. No. 108-357, 118 Stat. 1418 (2004).
5
  Improved Procedures Are Needed to Identify Noncompliance With the Reporting Requirements for Contributions
of Motor Vehicles (Reference Number 2007-30-171, dated September 17, 2007).
                                                                                                      Page 1
                            Procedures to Address Noncompliance
                  With the Reporting Requirements for Contributions of Motor
                             Vehicles Continue to Be Inadequate



Investment Division and the Small Business/Self-Employed Division. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                            Page 2
                                  Procedures to Address Noncompliance
                        With the Reporting Requirements for Contributions of Motor
                                   Vehicles Continue to Be Inadequate




                                    Results of Review

Additional Guidance Has Been Issued Concerning Requirements for
Claiming Motor Vehicle Donations
Our prior audit report recommended the IRS develop a comprehensive outreach plan on the
reporting requirements for motor vehicle donations for affected taxpayers and tax practitioners.
Although the IRS did not agree a comprehensive outreach plan was needed, on August 7, 2008,
the IRS published a notice of proposed rulemaking and proposed regulations in the Federal
Register on the substantiation and reporting requirements for cash and noncash charitable
contributions under Internal Revenue Code Section 170. 6 Substantiation for contributions of
motor vehicles is specifically addressed in the proposed regulations. The IRS has plans to
finalize the regulations by June 30, 2009.
In addition, the IRS partnered with external stakeholder groups to gather suggestions to promote
awareness of the increased reporting requirements for noncash charitable contributions and for
claiming deductions for charitable contributions of motor vehicles. As a result, an
implementation plan was developed with recommendations to improve awareness of the current
requirements. One of the proposed recommendations included the creation of a link on the
public IRS Internet web site (IRS.gov) for taxpayers and external stakeholders to access a
Charitable Contribution and Appraisal/Appraiser Requirements web site. The Charitable
Contribution and Appraisal/Appraiser Requirements web site would highlight reporting and
appraisal requirements and provide links to relevant materials, notices, a summary of AJCA
provisions, and also important forms, instructions, and publications. The IRS would like the
public web site to be accessed by outside stakeholders and allow for the creation of links from
the outside stakeholders’ individual organization web sites directly to the IRS public web site for
their constituents. Once the implementation plan is finalized and approved by all vested
organizations, the IRS plans to conference with the external stakeholders to present the plan and
to gain their commitment to keep their constituents informed of reporting requirements.
We believe the IRS’ additional guidance and the proposed recommendation made in its
implementation plan, once complete, will provide taxpayers and external stakeholders with
information needed to comply with charitable contribution and appraisal/appraiser requirements.




6
    26 U.S.C. Section 170 (2005).
                                                                                            Page 3
                            Procedures to Address Noncompliance
                  With the Reporting Requirements for Contributions of Motor
                             Vehicles Continue to Be Inadequate



Taxpayer Noncompliance With the Requirements for Claiming Motor
Vehicle Donations Continues to Be Significant
We previously recommended that the IRS take the following corrective actions in regard to
Submission Processing function procedures:
   •   Lower the dollar threshold used by the Submission Processing function to identify returns
       without the required substantiation that require followup actions.
   •   Correspond with taxpayers to obtain missing Noncash Charitable Contributions
       (Form 8283) and supporting documentation.
   •   Assign a specific audit indicator to tax returns claiming a charitable contribution of
       donated motor vehicles more than a specific threshold dollar amount and missing
       Forms 8283.
We received from the IRS only a partial agreement to these recommendations. Overall, the IRS
did not agree to a reduction in the dollar threshold that would trigger corrective actions on
incomplete/erroneous returns, but it agreed to explore alternative ways to address lower dollar
motor vehicle compliance issues. Effective January 2008, the IRS began assigning a specific
audit indicator to tax returns claiming a charitable contribution of donated motor vehicles and
missing Forms 8283. However, we determined that due to the high dollar threshold used, this
indicator would only alert the Examination function to tax returns in which the deductions are of
a significant amount and Form 8283 is missing and would not trigger an audit. The Examination
function would review the deduction only in the course of an audit undertaken for other reasons.
The indicator has been programmed and is currently working; however, we found that there have
been no returns coded for audit by the IRS.
As a result, the number of taxpayers claiming unsubstantiated deductions for motor vehicle
donations continues to be significant. We reviewed statistically valid samples of Tax Year 2007
individual income tax returns on which the deductions claimed for noncash charitable
contributions were greater than $500. Figure 1 contains details regarding our sample results.




                                                                                                Page 4
                                 Procedures to Address Noncompliance
                       With the Reporting Requirements for Contributions of Motor
                                  Vehicles Continue to Be Inadequate



information with their tax returns. Individuals who claim deductions for donated motor vehicles
exceeding $500 must provide the following with their returns:
       •   Form 8283 containing a description (make, model, condition, and mileage) of the donated
           property.
       •   Contributions of Motor Vehicles, Boats, and Airplanes (Form 1098-C) or a written
           acknowledgement from the charity.12
Instructions for Form 8283 inform the taxpayer that his or her deduction generally will be
disallowed if Form 8283 or a required appraisal is not attached to the return. The instructions
also state that taxpayers cannot claim deductions for donated motor vehicles greater than $500 if
they fail to file Form 1098-C (or other statement). However, the IRS Submission Processing
function did not adjust, stop processing, or implement any type of review of these returns.
Submission Processing function guidelines continue to allow returns with deductions exceeding
$500 without substantiation for the claimed deduction for the donated motor vehicle to be
processed as filed by the taxpayer except in the most egregious cases in which deductions are of
a very significant amount and Form 8283 is missing.
The IRS Submission Processing function’s procedures continue to be inadequate to ensure
taxpayers meet requirements for deducting charitable contributions of motor vehicles.
Additional procedures need to be established to identify noncompliance with motor vehicle
donation requirements during returns processing. Additional returns processing procedures will
enable the IRS to address potential noncompliance. None of our sampled returns with
inadequate documentation would be identified and reviewed under the IRS’ current procedures.
The IRS is not addressing the Congressional intent of this legislation by not identifying returns
filed without the required substantiation for donated motor vehicles. Taxpayers who are not
entitled to deductions for donated motor vehicles are reducing their tax liabilities and may
receive refunds regardless of whether they provide the required substantiation. This condition
could potentially result in a loss of revenue to the Federal Government and inequitable treatment
of taxpayers.

Recommendation
Recommendation 1: The Commissioner, Wage and Investment Division, should ensure
returns without required substantiation for charitable contributions of motor vehicles (including
those with missing or incomplete documentation) are processed pursuant to math error authority.
           Management’s Response: The Commissioner, Wage and Investment Division,
           agreed with this recommendation and plans to use math error authority to deny claims for


12
     The written acknowledgement from the charity must contain the same information as Form 1098-C.
                                                                                                      Page 6
                               Procedures to Address Noncompliance
                     With the Reporting Requirements for Contributions of Motor
                                Vehicles Continue to Be Inadequate



        charitable contributions of motor vehicles when the supporting documentation is not
        submitted with the return. If the taxpayer provides the required substantiation later, the
        deduction will be recredited to his or her account.

Procedures Need to Be Established to Match Information Reported by
Charitable Organizations to Taxpayers’ Returns
AJCA Provision 884 requires charitable organizations to file Form 1098-C with the IRS for each
contribution of a motor vehicle with a claimed value more than $500. 13 In addition, the charities
must furnish Form 1098-C (or a written acknowledgment containing the same information) to
donors of motor vehicles when the claimed value is more than $500.
Internal Revenue Code Section 6720 14 allows penalties to be imposed on any donee organization
that is required to furnish an acknowledgment to a donor or an information report with the IRS if
the donee organization knowingly furnishes false or fraudulent information or knowingly fails to
furnish the documents and show the required information.
To determine whether there was a record of Form 1098-C filed with the IRS, we reviewed
Information Return Processing System Transcript Reports for samples of Tax Year 2007
individual income tax returns where taxpayers claimed motor vehicle deductions greater than
$500. In 19 (59 percent) of 32 paper-filed tax returns and in 157 (64 percent) of
245 electronically filed tax returns where charitable organizations received contributions of
motor vehicles, there was no record of Form 1098-C filed with the IRS. Figure 2 contains details
regarding our samples and our sample results.
       Figure 2: Charitable Organizations Filing of Forms 1098-C With the IRS
                              Returns        Form        No Record       Percentage With No Record of
                              Sampled       1098-C        of Form         Form 1098-C Filed With the
                                             Filed        1098-C                     IRS
         Paper Returns           32            13             19                       59%
            Electronic          245 15         88            157                       64%
             Returns
      Source: TIGTA analysis of cases in which the deductions for motor vehicle donations were greater
      than $500.

The IRS captures information from Form 1098-C on the Information Return Processing System;
however, the IRS Automated Underreporter Program is not being utilized to match the

13
   For Calendar Year 2007 donations, the charity is required to submit Form 1098-C to the IRS by
February 28, 2008 (March 31, 2008, if filed electronically).
14
   26 U.S.C. Section 6720 (2005).
15
   The returns sampled include 22 cases where we were unable to obtain the tax return or Form 8453.
                                                                                                         Page 7
                             Procedures to Address Noncompliance
                   With the Reporting Requirements for Contributions of Motor
                              Vehicles Continue to Be Inadequate



information from the Forms 1098-C with the corresponding information provided on taxpayers’
returns. As a result, the IRS is not identifying potential underreporting by taxpayers claiming
undue deductions for motor vehicle donations. Taxpayers who may not be entitled to deductions
for donated motor vehicles may be reducing their tax liabilities. In addition, the IRS is unable to
determine which charities should be penalized for not submitting the required documentation
which could result in a loss of revenue to the Federal Government and inequitable treatment of
taxpayers.

Recommendations
Recommendation 2: The Commissioner, Wage and Investment Division, should coordinate
with the other responsible operating divisions to ensure all Forms 1098-C are transcribed and to
develop procedures to match the information reported by charities on Forms 1098-C with the
information reported on taxpayers’ returns.
       Management’s Response: IRS management disagreed with our recommendation.
       Management did not believe matching the information reported by charities on Form
       1098-C with the information on taxpayers’ returns would yield good results. IRS
       management stated motor vehicle deductions are one of many noncash charitable
       contributions reported on Itemized Deductions (Schedule A) of the U.S. Individual
       Income Tax Return (Form 1040), with no separate line to report it; therefore, the quality
       of any match would be poor. IRS management believes this noncash contribution review
       is better suited for the Correspondence Examination Program.
       Office of Audit Comment: We disagree that matching the information reported by
       charities on Form 1098-C with the information on taxpayers’ returns would not yield
       good results and that the noncash contribution review is better suited for the
       Correspondence Examination Program. The Correspondence Examination Program
       would review only a small number of tax returns reflecting motor vehicle donations. We
       believe matching the information reported by charities with the information on taxpayers’
       returns would more effectively identify potential underreporting by taxpayers claiming
       undue deductions for motor vehicle donations and would facilitate the imposition of
       penalties on charities that do not provide the required documentation to donors and the
       IRS.
Recommendation 3: The Commissioner, Tax Exempt and Government Entities Division,
should use outreach, educational material, and other methods to ensure that charitable
organizations comply with the requirement to file Form 1098-C with the IRS for each donated
motor vehicle with a value in excess of $500.
       Management’s Response: IRS management disagreed with our recommendation.
       Management did not believe additional outreach, educational material, and other methods
       were needed. IRS management believes they already have a substantial outreach

                                                                                            Page 8
                     Procedures to Address Noncompliance
           With the Reporting Requirements for Contributions of Motor
                      Vehicles Continue to Be Inadequate



program for motor vehicle donations and have already completed what is being
recommended.
Office of Audit Comment: We disagree with the IRS’ response regarding outreach to
charitable organizations. Effective January 2006, charities were required to submit
Form 1098-C to the IRS. The IRS has had more than 2 years to make charities aware of
the change in the law and yet there was still an approximately 60 percent noncompliance
rate. The deficient cases in our samples were all filed after the IRS outreach was already
available. Further, because the IRS is not identifying noncompliant charities and
imposing penalties when the charities fail to submit the required documentation, charities
compliance may not improve.




                                                                                   Page 9
                               Procedures to Address Noncompliance
                     With the Reporting Requirements for Contributions of Motor
                                Vehicles Continue to Be Inadequate



                                                                                             Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate the effectiveness of the continuing
implementation of the AJCA, Provision 884, 1 and the effectiveness of the processing of reported
deductions for donations of motor vehicles to charitable organizations 2 years after its enactment.
We also evaluated whether the charities receiving the donated vehicles are providing the required
documentation to the IRS. To accomplish the objective, we:
I.      Evaluated the effectiveness of the IRS’ continuing implementation of Provision 884.
        A. Reviewed Provision 884 regarding any revisions to the requirements for deductions
           of donated vehicles to charitable organizations.
            1. Reviewed Commerce Clearing House Incorporated and the Research Institute of
               America Federal Tax Handbook for any new information on Provision 884.
            2. Identified any current Congressional concerns with the legitimacy of taxpayers’
               deductions for motor vehicle contributions.
            3. Performed a risk assessment to identify any internal control weaknesses that
               needed to be included in our audit tests.
        B. Determined what actions the IRS has taken since our September 2007 report 2 was
           issued.
            1. Determined whether the IRS has implemented the corrective actions in our
               September 2007 report.
            2. Reviewed and monitored the Legislative Implementation Tracking System 3 to
               identify any planned actions that were never completed.
            3. Determined whether the Internal Revenue Manual instructions were revised to
               address additional requirements regarding the processing of individual income tax
               returns reporting a deduction for donated vehicles.
            4. Issued a questionnaire to the appropriate IRS management to identify actions
               taken since our previous report was issued.


1
  Pub. L. No. 108-357, 118 Stat. 1418 (2004).
2
  Improved Procedures Are Needed to Identify Noncompliance With the Reporting Requirements for Contributions
of Motor Vehicles (Reference Number 2007-30-171, dated September 17, 2007).
3
  See Appendix VII for a glossary of the terms.
                                                                                                     Page 10
                                Procedures to Address Noncompliance
                      With the Reporting Requirements for Contributions of Motor
                                 Vehicles Continue to Be Inadequate



             5. Compared the error rates on Tax Years 2005 and 2007 individual tax returns
                (paper and electronic).
II.      Evaluated the effectiveness of the IRS’ processing of individual income tax returns
         reporting a deduction for donated vehicles by reviewing samples of tax returns.
         A. Extracted a file with 2,101,128 tax returns from the Individual Master File
            Return Transaction File, which is stored at the TIGTA Data Center Warehouse. We
            used the criterion of paper-filed individual income tax returns with noncash
            contributions in excess of $500 for the tax year ending December 31, 2007. 4
             1. Selected a random statistically valid sample of paper-filed tax returns (see
                Step II.A.3.) from the population based on a 95 percent confidence level, a
                projected 50 percent error rate, and a precision of ±3.1 percent. A statistical
                sampling method was used to make a projection about the population from which
                the sample was selected. We provided the numbers to the statistician contracted
                by the TIGTA to validate our statistical sampling methodology. We validated the
                tax return data against the data on the Individual Master File Return Transaction
                File.
             2. Reviewed a random statistically valid sample of 1,045 5 paper-filed tax returns
                with a Noncash Charitable Contributions (Form 8283) to determine whether
                (1) the deductions were for vehicles donated to charitable organizations 6 and
                (2) Contributions of Motor Vehicles, Boats, and Airplanes (Form 1098-C) (or
                acknowledgements from the donee) were attached to the returns.
         B. Extracted a file with 75,474 tax returns from the Tax Return Database, which is
            stored at the TIGTA Data Center Warehouse. We used the criterion of electronically
            filed individual income tax returns with noncash contributions in excess of $500 for
            the tax year ending December 31, 2007, and motor vehicles with model years from
            1900 through 2007 noted in the Property Description field of Form 8283.
             1. Selected a random statistically valid sample of electronically filed tax returns (see
                Step II.B.2.) from the population based on a 95 percent confidence level, a
                projected 50 percent error rate, and a precision of ±7 percent. 7 A statistical
                sampling method was used to make a projection about the population from which

4
  We selected this tax period so any deductions for noncash charitable contributions would be subject to AJCA
Provision 884.
5
  We selected a random sample of 1,200 paper-filed tax returns to ensure that we received the required 999 sampled
cases. We reviewed all 1,045 tax returns we received.
6
  From the 1,045 tax returns, we identified 32 paper-filed tax returns with a vehicle donation greater than $500 listed
on the Form 8283.
7
  We adjusted the precision levels to arrive at workable sample sizes. We used a Statistical Sample Size Calculator
to determine the precision and sample sizes.
                                                                                                             Page 11
                            Procedures to Address Noncompliance
                  With the Reporting Requirements for Contributions of Motor
                             Vehicles Continue to Be Inadequate



              the sample was selected. We provided the numbers to the statistician contracted
              by the TIGTA to validate our statistical sampling methodology. We validated the
              tax return data against the data on the Tax Return Database.
          2. Reviewed a random statistically valid sample of 250 electronically filed tax
             returns to determine whether (1) a motor vehicle was reported on Form 8283 and
             (2) U.S. Individual Income Tax Transmittal for an IRS e-file Return (Form 8453)
             (with Form 1098-C or an acknowledgement from the donee attached) was filed.
       C. Determined whether the IRS took steps to obtain any missing documentation and
          what steps it took if no documentation was ever provided by the taxpayer.
III.   Determined whether the charitable organizations receiving the donated vehicles
       submitted the Form 1098-C to the IRS.
       A. Reviewed Information Return Processing Transcript Reports using both the
          taxpayers’ primary and secondary Social Security Numbers for all Individual Master
          File paper and electronically filed tax returns identified in Steps II.A.1. and II.B.1.
          where taxpayers claimed motor vehicle deductions greater than $500.




                                                                                          Page 12
                           Procedures to Address Noncompliance
                 With the Reporting Requirements for Contributions of Motor
                            Vehicles Continue to Be Inadequate



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Marybeth H. Schumann, Director
Bernard F. Kelly, Audit Manager
Stephen A. Wybaillie, Lead Auditor
Philip W. Peyser, Senior Auditor
Sylvia Sloan-Copeland, Auditor
Judith P. Harrald, Information Technology Specialist
Martha A. Stewart, Information Technology Specialist




                                                                                      Page 13
                          Procedures to Address Noncompliance
                With the Reporting Requirements for Contributions of Motor
                           Vehicles Continue to Be Inadequate



                                                                        Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Assistant Deputy Commissioner for Services and Enforcement SE
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities Division SE:T
Commissioner, Wage and Investment Division SE:W
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Deputy Commissioner for Services and Enforcement SE
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Tax Exempt and Government Entities Division SE:T
       Commissioner, Wage and Investment Division SE:W




                                                                              Page 14
                                Procedures to Address Noncompliance
                      With the Reporting Requirements for Contributions of Motor
                                 Vehicles Continue to Be Inadequate



                                                                                                  Appendix IV

                                      Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Increased Revenue – Potential; $10,098,283 per year involving 30,160 1 taxpayers;
    $50.5 million over 5 years involving 150,800 taxpayers.2 This represents the additional
    revenue associated with tax assessments for 30,160 unsubstantiated deductions for motor
    vehicle donations claimed on Tax Year 2007 paper-filed tax returns. 3 The value of the
    outcome measure does not include amounts (costs) that could partially offset this benefit due
    to reallocating some IRS resources (see page 4).

Methodology Used to Measure the Reported Benefit:
To estimate the potential additional revenue associated with resolving unsubstantiated deductions
for motor vehicle donations claimed on Tax Year 2007 paper-filed tax returns, we:
    1. Reviewed a random statistically valid sample of 1,045 4 paper-filed tax returns with a
       Noncash Charitable Contributions (Form 8283) to determine whether (1) the deductions
       were for vehicles donated to charitable organizations 5 and (2) Contributions of Motor
       Vehicles, Boats, and Airplanes (Form 1098-C) (or acknowledgements from the donee)
       were attached to the returns. Our sample was selected from a population of 2,101,128 tax
       returns for the tax year ending December 31, 2007.
    2. Estimated 30,160 taxpayers claimed unsubstantiated deductions for charitable
       contributions of motor vehicles of $100,982,826 on Tax Year 2007 returns.



1
  The figure 30,160 represents cases where taxpayers did not file the required documentation and the charities did
not file the Form 1098-C with the IRS.
2
  The 1-year and 5-year projections were computed using the lowest effective tax rate for single, married, separate,
and head of household.
3
  We selected tax returns with motor vehicle donations in excess of $500 for the year ending December 31, 2007.
4
  We selected a random sample of 1,200 paper-filed tax returns to ensure that we received the required 999 sampled
cases. We reviewed all 1,045 tax returns we received.
5
  From the 1,045 tax returns, we identified 32 paper-filed tax returns with a vehicle donation greater than $500 listed
on the Form 8283.
                                                                                                             Page 15
                                Procedures to Address Noncompliance
                      With the Reporting Requirements for Contributions of Motor
                                 Vehicles Continue to Be Inadequate



    3. Used the lowest ‘effective’ tax rate of 10 percent for filing statuses single, married,
       separate, and head of household to project the unsubstantiated deductions for motor
       vehicle donations resulting in approximately $10,098,283 in tax assessments.
    4. Shared our methodology for projecting our attribute sample into the population of
       U.S. Individual Income Tax Returns (Form 1040) with the statistician contracted by the
       TIGTA, who confirmed the accuracy and validity of the projections.

Type and Value of Outcome Measure:
•   Increased Revenue – Potential; $6,961,903 per year involving 33,812 6 taxpayers;
    $34.8 million over 5 years involving 169,060 taxpayers. 7 This represents the additional
    revenue associated with tax assessments for 33,812 unsubstantiated deductions for motor
    vehicle donations claimed on Tax Year 2007 electronically filed tax returns. 8 The value of
    the outcome measure does not include amounts (costs) that could partially offset this benefit
    due to reallocating some IRS resources (see page 4).

Methodology Used to Measure the Reported Benefit:
To estimate the potential additional revenue associated with resolving unsubstantiated deductions
for motor vehicle donations claimed on Tax Year 2007 electronically filed tax returns, we:
    1. Reviewed a random statistically valid sample of 250 electronically filed tax returns with
       Form 8283 to determine whether (1) the deductions were for vehicles donated to
       charitable organizations and (2) Form 1098-C (or acknowledgements from the donee)
       were attached to the returns. Our sample was selected from a population of 75,474 tax
       returns for the tax year ending December 31, 2007.
    2. Estimated 33,812 taxpayers claimed unsubstantiated deductions for charitable
       contributions of motor vehicles of $69,619,029 on Tax Year 2007 returns.
    3. Used the lowest ‘effective’ tax rate of 10 percent for filing statuses single, married,
       separate, and head of household to project the unsubstantiated deductions for motor
       vehicle donations resulting in approximately $6,961,903 in tax assessments.
    4. Shared our methodology for projecting our attribute sample into the population of Forms
       1040 with the statistician contracted by the TIGTA, who confirmed the accuracy and
       validity of the projections.


6
  The figure 33,812 represents cases where taxpayers did not file the required documentation and the charities did
not file the Form 1098-C with the IRS.
7
  The 1-year and 5-year projections were computed using the lowest effective tax rate for single, married, separate,
and head of household filing statuses.
8
  We selected tax returns with motor vehicle donations in excess of $500 for the year ending December 31, 2007.
                                                                                                            Page 16
                                Procedures to Address Noncompliance
                      With the Reporting Requirements for Contributions of Motor
                                 Vehicles Continue to Be Inadequate



                                                                                                 Appendix V

                                Statistical Methodology

In 21 (66 percent) of 32 paper-filed tax returns and 165 (74 percent) of 223 electronically filed
tax returns claiming deductions for contributions of motor vehicles, taxpayers failed to provide
the required substantiation for deductions of approximately $55,436 and $307,659, 1 respectively.
From our random statistically valid samples of 1,045 paper and 250 electronically filed tax
returns, we estimate 92,037 taxpayers claimed unsubstantiated deductions for charitable
contributions of motor vehicles of $204 million on Tax Year 2007 returns.
These estimates were determined using the two samples described in Figure 1 on page 5. For the
sample of paper returns with motor vehicle donations greater than $500, we estimate
42,224 taxpayers could have claimed unsubstantiated motor vehicle contributions totaling
$111 million. The number of taxpayers range from 24,343 to 60,104 totaling $9 million to
approximately $214 million. For the sample of electronic returns with motor vehicle donations
greater than $500, we estimate 49,813 taxpayers could have claimed unsubstantiated motor
vehicle contributions totaling approximately $93 million. The number of taxpayers range from
45,379 to 54,246 totaling approximately $78 million to $108 million.




1
 The actual tax losses cannot be determined because the IRS did not identify these returns and, therefore, took no
actions to determine whether the taxpayers could provide the required documentation.
                                                                                                           Page 17
                               Procedures to Address Noncompliance
                     With the Reporting Requirements for Contributions of Motor
                                Vehicles Continue to Be Inadequate



                                                                                           Appendix VI

        Detailed Requirements of the American Jobs
            Creation Act of 2004, Provision 884

Individual taxpayers are required to file Noncash Charitable Contributions (Form 8283) if their
charitable deductions claimed for noncash contributions exceed $500. The AJCA, Provision
884, added more information and reporting requirements for charitable contributions of motor
vehicles. In addition to Form 8283, individual taxpayers are required to file Contributions of
Motor Vehicles, Boats, and Airplanes (Form 1098-C) or a written acknowledgement from the
charity if their charitable deductions claimed for donated motor vehicles exceed $500. 1
Taxpayers filing electronic returns are required to file U.S. Individual Income Tax Transmittal
for an IRS e-file Return (Form 8453) to submit Form 1098-C or any required paper forms. The
Provision limits the deductions for vehicle donations of more than $500 to the sale price obtained
by the charity; however, in some limited circumstances, the donor may claim fair market value.
The allowable deduction depends on what the charity does with the vehicle. If the charity sells
the vehicle without significantly using or improving it, the deduction is limited to the smaller of
the gross proceeds received by the charity from the sale, or the vehicle’s fair market value on the
date of the contribution. However, if the charity (1) makes a significant intervening use of the
vehicle before transferring it, (2) makes a material improvement to the vehicle before
transferring it, or (3) gives or sells the vehicle to a needy individual for a price significantly
below fair market value, the deduction is generally the vehicle’s fair market value on the date of
the contribution.
The Provision also requires a written appraisal from a qualified appraiser for motor vehicle
donations of more than $5,000 if the deduction is not limited to the gross proceeds from the sale
of the vehicle. Provision 884 is effective for donations made after December 31, 2004.




1
 Although the Provision was effective for donations made after December 31, 2004, the Form 1098-C was not
completed until September 13, 2005.
                                                                                                     Page 18
                            Procedures to Address Noncompliance
                  With the Reporting Requirements for Contributions of Motor
                             Vehicles Continue to Be Inadequate



                                                                                Appendix VII

                                Glossary of Terms

Automated Underreporter Program – Works underreporter cases in IRS campuses by
matching information returns [e.g., various information returns (Form 1099 series), Wage and
Tax Statements (Form W-2)] against data reported on U.S. Individual Income Tax Returns
(Form 1040).
Campus – The data processing arm of the IRS. The campuses process paper and electronic
submissions, correct errors, and forward data to the Computing Centers for analysis and posting
to taxpayer accounts.
Fair Market Value – The price at which the property would change hands between a willing
buyer and a willing seller, neither being under any compulsion to buy or sell and both having
reasonable knowledge of the relevant facts.
Federal Register – Official daily publication for rules, proposed rules, and notices of Federal
agencies and organizations, as well as executive orders and other presidential documents.
Form 1099 – An information return used to report various types of income other than wages,
salaries, and tips.
Individual Master File – The IRS database that maintains transactions or records of individual
tax accounts.
Information Return Processing System – Receives data submitted by employers and other
third parties reporting taxpayer income such as wages, pensions, interest, and dividends paid
during the tax year.
Legislative Implementation Tracking System – Monitors implementation of legislation and
lists the required actions, estimated due dates, and the functions responsible for taking the
necessary actions.
Math Error Authority – Math errors include an omission of information required on the tax
return to substantiate an entry. In math error cases, the IRS may assess and send a notice of
assessment of additional tax without using deficiency procedures.
Return Transaction File – Contains line items transcribed during returns processing and other
fields such as math calculations.
Tax Return Database – Contains all electronically filed original tax return information for
individual and business filers for Tax Years 1998 and beyond.


                                                                                          Page 19
                             Procedures to Address Noncompliance
                   With the Reporting Requirements for Contributions of Motor
                              Vehicles Continue to Be Inadequate



TIGTA Data Center Warehouse – Provides data and data access services; centralizes storage,
security, and administration of files; and develops uniform and user-friendly interfaces for users
to access data.
U.S. Individual Income Tax Transmittal for an IRS e-file Return (Form 8453) – Used to
authenticate the electronic portion of U.S. Individual Income Tax Return (Form 1040) and to
send any required paper forms, such as Contributions of Motor Vehicles, Boats, and Airplanes
(Form 1098-C). All electronically transmitted returns with required paper forms will not be
considered complete and, therefore, filed unless and until a Form 8453 signed by the taxpayer or
an authorized agent is received by the IRS.




                                                                                           Page 20
               Procedures to Address Noncompliance
     With the Reporting Requirements for Contributions of Motor
                Vehicles Continue to Be Inadequate



                                                   Appendix VIII

Management’s Response to the Draft Report




                                                            Page 21
          Procedures to Address Noncompliance
With the Reporting Requirements for Contributions of Motor
           Vehicles Continue to Be Inadequate




                                                       Page 22
          Procedures to Address Noncompliance
With the Reporting Requirements for Contributions of Motor
           Vehicles Continue to Be Inadequate




                                                       Page 23
          Procedures to Address Noncompliance
With the Reporting Requirements for Contributions of Motor
           Vehicles Continue to Be Inadequate




                                                       Page 24
          Procedures to Address Noncompliance
With the Reporting Requirements for Contributions of Motor
           Vehicles Continue to Be Inadequate




                                                       Page 25
